    Office of Inspector General
    U.S. Department of Labor
    Office of Audit




                     EVALUATION OF THE
                      NORTH CAROLINA
                    GROWERS ASSOCIATION




                               Report Number: 04-04-008-03-325
                               Date Issued: March 31, 2004




l
Evaluation of the North Carolina Growers Association




                                       TABLE OF CONTENTS


ACRONYMS ................................................................................................................ iii

EXECUTIVE SUMMARY ........................................................................................... 1

BACKGROUND .......................................................................................................... 4

RESULTS OF EVALUATION ................................................................................... 5

       NCGA Failed to Properly Report
       Workers Who Abandoned Their Jobs ............................................................ 5

       NCGA Requests for Workers Anticipated
       High Number of Abandonments ..................................................................... 8

       Contract Ending Dates May Increase Abandonment Rate .......................... 11

       The Impact of H-2A Abandonments on Illegal
       Immigration Could Not be Determined ........................................................ 14

CONCLUSION ........................................................................................................... 15

RECOMMENDATIONS ............................................................................................. 16

ETA’S RESPONSE TO THE DRAFT EVALUATION REPORT ............................. 17

OIG’S CONCLUSION TO ETA’S RESPONSE ......................................................... 18

ATTACHMENT A — OBJECTIVE, SCOPE AND METHODOLOGY

ATTACHMENT B — SAMPLING PLAN AND PROJECTED RESULTS

ATTACHMENT C — LIST OF APPROVED APPLICATIONS FOR ALIEN
               EMPLOYMENT CERTIFICATION

APPENDIX 1 — THE COMPLETE TEXT OF ETA’S RESPONSE TO THE
             DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                                                                      ii
Evaluation of the North Carolina Growers Association




                                        ACRONYMS


BCIS                     Bureau of Citizenship and Immigration Services
CFR                      Code of Federal Regulations
CY                       Calendar Year
DOL                      Department of Labor
ETA                      Employment and Training Administration
FY                       Fiscal Year
H-2A                     VISA Category – Temporary Agricultural
INA                      Immigration and Nationality Act
INS                      Immigration and Naturalization Service
IRCA                     Immigration Reform and Control Act of 1986
NCESC                    North Carolina Employment Security Commission
NCGA                     North Carolina Growers Association
NIIS                     Nonimmigrant Information System
OIG                      Office of the Inspector General
SWA                      State Workforce Agency
USCIS                    United States Citizenship and Immigration Services
WHD                      Wage and Hour Division




U.S. Department of Labor – Office of Inspector General                        iii
Evaluation of the North Carolina Growers Association




                                   EXECUTIVE SUMMARY


The Office of the Inspector General evaluated the North Carolina Growers
Association’s (hereafter NCGA or Association) Temporary Agricultural (H-2A)
program activities during calendar year 2001.1 Our evaluation was conducted in
response to a complaint filed by the North Carolina Monitor Advocate. 2 The
complaint alleged NCGA:

      •    did not properly report workers who abandoned their jobs to the North
           Carolina Employment Security Commission (NCESC);

      •    submitted applications that contained inflated requests for temporary
           workers which created an artificial oversupply of laborers, encouraged
           workers to abandon their jobs and resulted in illegal immigration; and

      •    falsified expected periods of employment, which encouraged workers to
           abandon their jobs and forfeit their rights to return transportation and
           three-quarters contract guarantees.3

In addressing the complaints, our objectives were to evaluate: the extent and
cause of worker abandonments, including the accuracy of the Association’s
reporting of abandonments; the Association’s practices or procedures that may
have contributed to worker abandonments; and the financial impact on workers
who abandoned their jobs prior to completion of their contracts.

We found that NCGA was not accurately reporting abandonments. The
abandonment reports to NCESC were sporadically submitted, incomplete and
inaccurate. Further, NCGA did not comply with requirements to report
abandonments to the Bureau of Citizenship and Immigration Services (BCIS).
From a sample of H-2A workers employed during Calendar Year (CY) 2001, we

1
  The H-2A program allows employers to hire foreign workers to fill temporary positions that employers
are unable to fill with qualified domestic workers. ETA certified more than 4,000 H-2A applications in
fiscal year 2001, which included nearly 45,000 workers. ETA approved 40 NCGA applications for work to
commence and end in calendar year 2001. The applications approved nearly 10,000 workers for joint
employment by NCGA and the approximately 1,000 association growers listed on the applications.
2
 Each state has a Monitor Advocate Program to ensure that equitable and equal employment services are
provided to Migrant Seasonal Farm Workers (MSFW) as that provided to non-MSFWs.
3
 H-2A regulations guarantee that a worker will be paid for return transportation to the worker’s country of
origin and three-fourths of the hours specified in the job offer, provided that the worker remains until the
ending date stated in their contracts with the Association.



U.S. Department of Labor – Office of Inspector General                                                     1
Evaluation of the North Carolina Growers Association



estimate over one-half of NCGA’s foreign workers abandoned their jobs. Our
research found no reliable method to measure the extent that worker
abandonments contributed to illegal immigration.4

Concerning allegations of inflated requests for workers and false periods of
employment, the number of workers requested on NCGA’s applications was
overstated to accommodate expected abandonments. We also found that NCGA
requested some workers for longer periods than needed to harvest crops, a
practice that may have contributed to increased abandonment rates.

We recommend that the Assistant Secretary for Employment and Training
develop, document and implement a plan to stringently monitor NCGA’s use of
the H-2A program. Specifically, we recommend that ETA:

    •   Ensure that NCGA complies with requirements to accurately report
        workers who abandon their jobs or terminate early;

    •   Coordinate reporting requirements with BCIS.

    •   Ensure that NCGA requests only the numbers of workers growers
        actually need; and

    •   Review dates of need contained on applications and insist they more
        accurately reflect dates workers are needed for harvests.


ETA’s Response to the Draft Report

ETA responded that:

        •    DOL regulations do not require coordination of abandonment
             reporting activities between governmental agencies, and that ETA
             lacks the authority to track and report worker abandonment;
        •    ETA does not question employers regarding the number of workers
             they request; and
        •    employers have increasingly shifted to diversified crop operations,
             making extended dates of need necessary to accommodate their multi
             crop activities. ETA agrees to reinforce its policy to verify that
4
  An INS publication, dated January 2003, estimated that the unauthorized immigrant population in the
United States increased by an average of 350,000 per year during the 1990’s. By comparison, the average
number of H-2A workers admitted into the United States during the fiscal years 1999 through 2002 was
just over 27,000 workers, according to the 2002 Yearbook of Immigration Statistics, dated October 2003.



U.S. Department of Labor – Office of Inspector General                                                2
Evaluation of the North Carolina Growers Association


            employers’ dates of need are reasonable and correlate with their
            historical practices.

OIG’s Conclusion to ETA’s Response

We continue to recommend ETA ensure that NCGA reports workers who
abandon their jobs or are terminated for cause. Regulations only release
employers from transportation and employment guarantees when the NCESC
local office is notified of worker abandonment or termination. Additionally, we
continue to believe that increased coordination between the involved agencies
will improve program operations.

We also continue to recommend that ETA implement a plan to ensure that
NCGA does not request workers in larger numbers than needed or for longer
periods of time than necessary to meet the Association’s needs. NCGA’s practice
of accounting for turnover in their initial request for workers has allowed them
to circumvent strict regulations for the replacement of workers.

ETA misinterprets OIG’s finding related to NCGA’s contract ending dates. We
did not conclude that NCGA falsified expected periods of employment. Rather,
OIG concluded that NCGA’s use of the same ending date for more than 90
percent of their workforce overstated the length of time they needed a majority
of the workers we sampled. Many of these workers failed to receive their return
transportation, despite their having worked a majority of the contract period.




U.S. Department of Labor – Office of Inspector General                            3
Evaluation of the North Carolina Growers Association



                                       BACKGROUND


The Immigration and Nationality Act (INA), as amended by the Immigration
Reform and Control Act of 1986 (IRCA), Public Law 99-603, allows agricultural
employers who anticipate difficulty in obtaining domestic workers to petition,
through the Bureau of Citizenship and Immigration Services (BCIS), for
permission to import nonimmigrant aliens into the United States for temporary
work. Administration of this program, commonly called H-2A, is the
responsibility of three Federal departments: The Departments of Labor (DOL),
Homeland Security, and State.

Two agencies share DOL’s responsibilities: The Employment and Training
Administration (ETA) grants certification to agricultural employers who
demonstrate both a need for foreign labor and a willingness to abide by
contractual guarantees that must be offered to both foreign and domestic
workers. The Employment Standards Administration’s Wage and Hour Division
(WHD) enforces compliance with the contractual guarantees.

The North Carolina Growers Association (hereafter NCGA or Association) is an
association of agricultural employers located throughout the State of North
Carolina. The Association jointly employs, along with its participating member
growers, workers to work in tobacco and a wide variety of other crops.

NCGA submitted 40 Applications for Alien Employment Certification that was
for work to commence and end during the Calendar Year 2001. (See Attachment
C.) These certified applications included approximately 1,000 growers and
requested a total of 9,948 workers. The Association used these certifications to
employ nearly 8,500 workers.




U.S. Department of Labor – Office of Inspector General                           4
Evaluation of the North Carolina Growers Association




                               RESULTS OF EVALUATION


                      NCGA FAILED TO PROPERLY REPORT
                     WORKERS WHO ABANDONED THEIR JOBS

The complainant asserted that NCGA did not properly report worker
abandonments to local State Workforce Agency (SWA) offices,5 as required by H-
2A program regulations. We found NCGA’s reporting of abandonment data was
sporadic, incomplete and inaccurate.

We found that more than one-half (51 percent) of the workers in our sample of
CY 2001 workers failed to complete their contracts and abandoned their jobs.6
“Abandonments” include workers who left their assigned growers prior to the
end of the contract, either with or without notification to their employer, and also
those who completed their last assignment but refused transfer to another
grower and departed prior to the end of the contract period. By abandoning
their jobs, workers forfeit their rights to contract guarantees and return
transportation to their countries of origin.7

Of those workers who abandoned their jobs, 71 percent left the jobs before
completing work for their assigned growers, while the remaining 29 percent
completed work for their last assigned grower, but refused a transfer to another
grower and quit. (See Figure 1.)




5
 ETA’s General Administrative Letter No. 01-02 provides a list of centralized locations for H-2A filing
and notification to the designated SWA. The SWA designated for the State of North Carolina is the
Employment Security Commission office in Raleigh. This is the location where NCGA submitted their
abandonment and termination reports.
6
 All percentages discussed in the remainder of this report that are identified as obtained from our sample
are point estimates. See Attachment B for a discussion of our sampling methodology and the results.
7
 Our sample of 136 workers included 66 workers who completed their work for NCGA and received a
check from NCGA for their return transportation. These checks averaged $169 per worker.



U.S. Department of Labor – Office of Inspector General                                                       5
Evaluation of the North Carolina Growers Association




                                                                                 Figure 1

                           Workers Abandoning Their Jobs

                                                                      Abandoned Grower
                                                                           71 %




                   Completed            Abandoned
                     49 %                 51 %




                                                                       Refused Transfer
                                                                            29 %




Labor regulations at 20 Code of Federal Regulations (CFR) Section 655.102(b)(11)
state:8

        If the worker voluntarily abandons employment before the end of
        the contract period, or is terminated for cause, and the employer
        notifies the local office of such abandonment or termination, the
        employer will not be responsible for providing or paying for the
        subsequent transportation and subsistence expenses of any
        worker. . . and that worker is not entitled to the “three-fourths
        guarantee”. . .

Similarly, employers who petition BCIS for workers agree to meet the
requirements of 8 CFR Section 214.2(h)(5)(vi)(A):

        The Petitioner further agrees to notify the Service in the manner
        specified within twenty-four hours if an H-2A worker absconds or
        if the authorized employment ends more than five days before the


8
 NCGA and its member growers jointly employ the H-2A workers they bring into the country. As a joint
employer, NCGA is equally responsible for reporting worker abandonments as are the assigned growers.



U.S. Department of Labor – Office of Inspector General                                                 6
Evaluation of the North Carolina Growers Association


        relating certification document expires, and to pay liquidated
        damages of ten dollars for each instance where it cannot

        demonstrate compliance with this notification requirement. The
        petitioner also agrees to pay liquidated damages of two hundred
        dollars for each instance it cannot demonstrate that its H-2A
        worker either departed the United States or obtained authorized
        status based on another petition. . .

After October 3, 2001,9 the Association did not submit any abandonment and
termination reports to the NCESC. Prior to that date, they periodically submitted
reports to the main NCESC office in Raleigh.10 However, the reports lacked
valuable information, such as the name of the assigned grower or the worker’s
date of departure. Additionally, some of the reports submitted to the NCESC
included a cover letter with the following disclaimer: “This report contains
repetitious information due to computer program error, multiple transfer
transactions, and prior reporting.” Although NCGA indicated the reports were
cumulative, we noted several examples of workers who had been included in
earlier reports but omitted from subsequent reports. No explanations were
offered for the omissions.

The data was also incomplete. We selected a random sample of 136 H-2A
workers from the universe of workers employed by Association growers during
CY 2001, and found that NCGA failed to report more than half (57 percent) of
those workers who abandoned their jobs.

Neither ETA nor NCESC monitors NCGA reporting of worker abandonments.
Reports are submitted centrally to NCESC, where they are maintained, but no
effort is made to ensure that the reports are accurate or complete.

ETA’s Chief of the Division of Foreign Labor Certification provided us with the
following statement regarding growers’ failure to notify the SWA when workers
abandon or are terminated:

        ETA does not track employer’s notification to the SWA of worker
        abandonments/terminations. The failure to report worker
        abandonments and/or terminations would not be considered a

9
  NCGA submitted one additional report, dated November 15, 2002, but only after being informed by OIG
that the October 3, 2001 report was the last report NCESC claimed to have received for the 2001 season.
10
 Training and Employment Guidance Letter 21-01 (dated April 24, 2002) now directs employers to report
workers within two business days of either the worker’s termination or the discovery of the worker’s
abandonment.



U.S. Department of Labor – Office of Inspector General                                                7
Evaluation of the North Carolina Growers Association


        substantial violation, and will not be the basis for denial of future
        certification.

We also found that the Association did not report any workers who absconded
or failed to complete their employment contracts to the BCIS. By signing the
petition application, “Form I-129, Petition for a Nonimmigrant Worker” the
petitioner agrees to comply with the reporting and documentation requirements
included in the cited regulation.

However, when NCGA was asked if they complied with the regulation by
reporting worker abandonments and terminations to BCIS, their representative
provided us the following response: “The INS regulation cited has never been
implemented by specifying a manner or person to whom notice of absconded or
terminated workers is to be reported.”

The manner for reporting changes to the terms and conditions of employment of
a worker is provided at 8 CFR Section 214.2(h)(11)(i)(A), which states:

        If the petitioner no longer employs the beneficiary, the petitioner
        shall send a letter explaining the change(s) to the director who
        approved the petition.


                NCGA REQUESTS FOR WORKERS ANTICIPATED
                   HIGH NUMBER OF ABANDONMENTS

The complainant alleged NCGA submits and ETA approves orders that contain
false requests for foreign labor, which create an artificial oversupply of foreign
workers. The complainant contended that the resulting oversupply of workers
contributes to illegal immigration, when workers find the work they were
promised is not available and they seek other employment.

H-2A program regulations require those who want temporary guest workers to
submit “Form ETA 750 (Application for Alien Employment Certification)” and
attach “Form ETA 790 (Agricultural Food Processing Clearance Order).” The
application and job offer include the number of workers needed and the dates for
which they will be needed. During Fiscal Year (FY) 2001, ETA certified more
than 4,000 applications nationwide, including nearly 45,000 temporary
agricultural workers. During this same general time period, CY 2001, ETA
certified 40 NCGA applications, which included requests for nearly 10,000
workers. The Association used these certifications to employ nearly 8,500 foreign
guest workers.




U.S. Department of Labor – Office of Inspector General                               8
Evaluation of the North Carolina Growers Association


For the growers we interviewed, the number of workers NCGA requested of
ETA on certifications exceeded the sum that individual growers had requested of
NCGA for the growing season. NCGA requested workers anticipating that
many would abandon their jobs or refuse transfer to another grower and quit.

Overall, 29 percent of the Association’s growers (37 of 129) who responded to
our question indicated their request for workers differed from the number
NCGA requested on their behalf, in certifications, submitted to ETA. 11 For these
37 growers, NCGA requested an average of about 3 more workers than these
growers wanted.

NCGA’s representative provided us with the following statement as justification
for the inflated requests:

        The NCGA states that it does not simply total up the number of
        workers requested by growers and enter that total on its
        applications. The NCGA staff determines how many workers will
        be needed to perform the work covered by a specific application
        based on the number of workers requested by members
        represented on the application, the extent of concurrent
        employment of the same workers by more than one member, the
        specific dates of need for workers, whether newly admitted
        workers will be required or whether workers already admitted will
        become available from other employers. . .

We asked ETA about the practice of approving certifications with inflated
requests for workers, and they provided us with the following statement:

        …ETA does not knowingly allow NCGA to request more workers
        than they anticipate needing. As a matter of policy, ETA does not
        go beyond the signed application form provided by employers that
        they will abide by the contents of the job order and the assurances
        provided. The premise that the employer has a certain number of
        job openings and the subsequent recruitment efforts made by the
        SWAs against those job openings are the guiding factors behind
        ETA’s certification efforts.

By requesting a sufficient number of workers to replace anticipated
abandonments, NCGA is circumventing requirements at 8 CFR Section


11
  We asked growers who had employed one or more sampled worker to tell us how many workers they had
requested from NCGA for the 2001 season. For the 129 growers who provided us a response, we
compared the number they provided with the number of workers requested for them by NCGA.



U.S. Department of Labor – Office of Inspector General                                           9
Evaluation of the North Carolina Growers Association


214.2(h)(5)(ix), which provides the process for substituting a worker after
admission. The regulation provides:


        An H-2A petition may be filed to replace H-2A workers whose
        employment was terminated early. . . . It must also be filed with a
        statement giving each terminated worker’s name, date and country
        of birth, termination date, and evidence the worker has departed
        the United States. A petition for a replacement may not be
        approved when requirements of paragraph (h)(5)(vi) of this section
        have not been met. A petition for replacements does not constitute
        the notice that an H-2A worker has absconded or has ended
        authorized employment more than five days before the relating
        certification expires.

We asked NCGA if they routinely petitioned BCIS (formerly INS) to replace
workers who abandoned their jobs. Their representative provided us with this
statement:

        There is no procedure for petitioning the INS for replacement of
        workers who abscond or are terminated early. Normal turnover
        must be accounted for in the initial request for workers, to the
        extent that there is sufficient inspected and approved housing
        available to do so. . . .

Ready access to replacement workers allows the Association to avoid petitioning
for them and demonstrating to BCIS that they have complied with 8 CFR Section
214.2(h)(5)(vi)—a requirement to report abandonments that the Association has
failed to meet in the past. Not only does this practice circumvent the BCIS
regulation, but it also overstates the need for workers on “Applications for Alien
Employment Certification.”

However, the evidence we reviewed does not substantiate allegations that
workers abandoned their jobs and contributed to illegal immigration because of
lack of work. Both workers who fulfilled their contract and those who
abandoned their jobs were generally employed full-time. In our sample, workers
who completed their contracts worked an average of just over 45 hours per week,
and even those workers who abandoned their jobs averaged nearly 40 hours of
work per week.




U.S. Department of Labor – Office of Inspector General                          10
Evaluation of the North Carolina Growers Association



                            CONTRACT ENDING DATES MAY
                            INCREASE ABANDONMENT RATE

The complainant alleged NCGA certifications contain false periods of
employment, which included ending dates that ran into November. The
complainant states that most tobacco work is over by mid to late September. The
allegation also stated that false periods of employment cause workers to abandon
their jobs, forfeiting their right to paid transportation and the three-quarter
guarantee.

Most of NCGA’s applications to ETA included requests from numerous
employers and offered work in diversified crops. 12 According to ETA’s H-2A
Program Handbook, master applications may be filed as long as the applications
cover virtually identical job opportunities with a number of employers.
According to a statement made to us by ETA’s Chief of the Division of Foreign
Labor Certification, “The NCGA is allowed. . . to file one master application for
its grower members with only one contract period reflected on each of the
applications.”

NCGA’s practice of using the same ending date for a majority of workers may
contribute to the number of workers who abandon their jobs. Overall, 93 percent
of workers NCGA requested (9,221 of 9,948) were on diversified crop orders that
had ending dates of November 5, 2001. While NCGA submitted many different
applications to accommodate the various beginning dates its growers needed
workers, all diversified crop applications contained the same ending date. The
only significant differences among a majority of the Association’s diversified
crop applications were the beginning dates of need that NCGA requested.

Agricultural statistics indicate that NCGA’s tobacco growers did not need
workers as late in the year as they were requested. We obtained agricultural
statistics for CY 2000 (the year before our evaluation period) and found that the
normal tobacco-harvesting season ran from the middle of September until the
middle of October, depending upon the type of tobacco being harvested. As
Figure 2 illustrates, sampled workers’ departures peaked during the first two
weeks in October, which coincides with the end of the tobacco harvest season.
Figure 2 also illustrates that workers were requested to remain until
November 5, 2001, a date that came after most had already left.



12
  Twenty-four out of 40 applications offered work in a diversity of crops. We found that 93 percent of
workers (8,580 of 9,221) certified on these diversified crop applications were offered the following job
description: “Workers will be expected to work in Tobacco and other minor crops…”



U.S. Department of Labor – Office of Inspector General                                                     11
Evaluation of the North Carolina Growers Association



                                                                                         Figure 2

                                     Last Day Worked
                                                                  October 15   November 5
     35
     30
     25
     20
     15
     10
      5
      0
                              July
          May




                                           Aug




                                                                                   Nov


                                                                                               Dec
                 June




                                                         Sept


                                                                     Oct
           Number of Workers


Evidence provided by the Association growers also indicates workers were
requested longer than needed. We asked a sample of growers for the ending
date of need they had requested from NCGA. Nearly 20 percent of growers who
provided us this information, indicated a date that was at least two weeks earlier
than the November 5th date used for all diversified crop orders.13 On average,
these growers requested an ending date that was 27 days earlier than the
November 5th date NCGA requested of ETA.

We found that 65 percent of sampled workers (89 of 136) had worked their last
day by October 15, 2001. More than half of these workers (49 of 89) abandoned
their jobs, and the remaining workers were equally divided between those who
refused transfer to another grower and those who completed their contracts
early. On average, workers who refused a transfer finished work for their last
grower on September 22, 2001, more than a month before the contract was to
end.14 Workers who completed their contracts early (by October 15, 2001),
worked their last day on October 10, 2001, on average. (See Figure 3.)


13
  We asked growers who employed one or more sampled workers to provide us with the ending date they
had requested from NCGA for the 2001 season. One hundred and twenty-eight growers responded to this
question, and 24 of them supplied a date that was at least two weeks earlier than November 5, 2001.
14
 About two-thirds of these workers (13 of 20) worked for growers who told us that they needed their
workers until November.



U.S. Department of Labor – Office of Inspector General                                                12
Evaluation of the North Carolina Growers Association



                                                                                        Figure 3

                          Contract Ending Date May Increase
                                Worker Abandonments

                                                         Abandoned   Completed
                                                           55 %        22.5 %




                     After Oct. 15      By Oct. 15
                         35 %             65 %




                                                                     Refused Transfer
                                                                         22.5 %




We asked ETA if they believed it was reasonable for NCGA to use November 5,
2001 as the ending date for a majority of its workers. They provided us with the
following response:

        ETA does not look beyond the anticipated starting and ending
        dates of need in their certification determination. NCGA provides
        assurance that they will meet the three-fourths wage guarantee that
        covers the entire contract period of employment and the workers
        are made aware of the contract period upon recruitment . . . .
        Without compelling reason, staff would not routinely question the
        information provided by the employer regarding dates of need.

Had the Association been diligent about submitting applications with contract
ending dates that truly represented the needs of its growers, workers who
wished to depart after the tobacco harvest could have been hired under those
contracts. These workers would have then received reimbursement for their
return transportation.




U.S. Department of Labor – Office of Inspector General                                             13
Evaluation of the North Carolina Growers Association


                THE IMPACT OF H-2A ABANDONMENTS ON
           ILLEGAL IMMIGRATION COULD NOT BE DETERMINED


Although the complainant alleged that abandonments increase illegal
immigration, we could not identify a reliable means of determining the number
of H-2A workers who had abandoned their jobs and remained in this Country.

The system for monitoring worker arrivals and departures into the United States
is the Nonimmigrant Information System (NIIS). The NIIS is BCIS’s principal
means for identifying workers who have overstayed their visas. The system
collects data from Form I-94 (Arrival-Departure Record), which is divided into
two parts—the arrival portion, which is provided to an immigration agent when
the worker enters the country; and the departure portion, which the worker is
supposed to turn in when he or she departs the country.

The U. S. Department of Justice, Office of Inspector General reported that the
NIIS is not producing reliable information, especially as it relates to worker
departures.15 According to the recent report, a principal cause for the unreliable
data is workers’ failure to turn in the departure portion of their I-94’s when they
leave the country.

Linking abandonment data with information collected by BCIS could assist in
identifying guestworkers who remain in the Country illegally. However, the
reliability of both systems’ data must be improved and reporting requirements
enforced.




15
 USDOJ-OIG report no. I-2002-006, “Follow-Up Report on INS Efforts to Improve the Control of
Nonimmigrant Overstays,” dated April 2002.



U.S. Department of Labor – Office of Inspector General                                         14
Evaluation of the North Carolina Growers Association




                                        CONCLUSION



DOL’s role in the H-2A program is to ensure that both domestic and
nonimmigrant laborers’ rights are protected. Domestic workers are guaranteed a
right to any job for which they are qualified before any nonimmigrant laborers
are hired, and both domestic and nonimmigrant laborers are guaranteed rights to
specified wages and working conditions. This obligation requires proper
oversight of the North Carolina Growers Association; an organization whose
requests for H-2A workers during CY 2001 comprised nearly one-fourth of the
total number of H-2A workers certified nationwide in FY 2001.

We found that approximately one-half of the Association’s H-2A workers we
sampled failed to complete their contracts and more than half of these workers
went unreported to NCESC. None were reported to BCIS. NCGA combats their
abandonment problem by requesting an excessive number of H-2A workers for a
longer period of time than many were needed, thus ensuring an available pool of
workers who are ready and willing to replace workers whose early departures
have largely gone unreported. This practice of anticipating worker
abandonments and requesting replacement workers in advance:

    •   bypasses the stringent requirements specified in BCIS regulations for
        replacing workers; and

    •   enables NCGA to avoid paying return transportation and/or contract
        guarantees, as many workers depart without completing their contracts.




U.S. Department of Labor – Office of Inspector General                           15
Evaluation of the North Carolina Growers Association




                                 RECOMMENDATIONS


We recommend that the Assistant Secretary for Employment and Training
develop, document and implement a plan to stringently monitor NCGA’s use of
the H-2A program. Specifically, we recommend ETA:

    •   Ensure that NCGA complies with requirements to accurately report
        workers who abandon their jobs or terminate early. To be of use in
        evaluating the program and to assist Wage and Hour in ensuring contract
        and transportation guarantees are met, reports should include the name of
        the assigned grower and the date that the worker abandoned or was
        terminated.

    •   Coordinate reporting requirements with BCIS. The source of
        abandonment data is the same for ETA and BCIS and the coordination of
        the requirements will minimize duplication and ensure consistency.

    •   Ensure that NCGA requests only the numbers of workers that growers
        actually need by requiring that NCGA submit supporting documentation
        with their applications. Supporting documentation would include copies
        of any written requests received from growers or a record of any verbal
        requests.

    •   Review dates of need contained on applications and insist the dates more
        accurately reflect dates workers are needed for harvests. By doing so,
        ETA may reduce the number of workers who abandon employment after
        completing their first assignment and forfeit their rights to the three-
        fourths guarantee and return transportation.




U.S. Department of Labor – Office of Inspector General                         16
Evaluation of the North Carolina Growers Association




    ETA’S RESPONSE TO THE DRAFT EVALUATION REPORT


ETA responded that, although DOL regulations require employer notification of
worker abandonment to the SWA, they do not require coordination between
ETA, SWA and USCIS (United States Citizenship and Immigration Services).
ETA stated they do not have the authority to track and report worker
abandonment, this being the purview of USCIS.

Additionally, ETA does not question employers regarding the number of
workers requested, relying on an employer’s knowledge of their staffing needs.
ETA indicated that they do not have a mechanism in place or the staffing
resources to question each employer’s stated need for workers.

Further, ETA explained that due to employers’ increasing use of diversified crop
operations, it has become necessary for them to extend the dates of need to
accommodate their diversified activities. However, ETA agrees to reinforce their
policy to verify that employers’ dates of need are reasonable and correlate with
historical practices. (See the complete text of ETA’s response at Appendix 1.)




U.S. Department of Labor – Office of Inspector General                        17
Evaluation of the North Carolina Growers Association




              OIG’S CONCLUSION TO ETA’S RESPONSE


We continue to recommend ETA ensure that NCGA properly report worker
abandonment. Department regulations make employers responsible for
providing or paying return transportation and fulfillment of the three-fourths
guarantee unless the worker voluntarily abandons employment or is terminated
before the end of the contract period and the employer notifies the local office of
such abandonment or termination.

Although OIG agrees that regulations do not require ETA to coordinate
reporting requirements with immigration services, we think increased
coordination between the two agencies could only help improve program
operations through more timely identification and tracking of worker
abandonment.

We continue to recommend ETA implement a mechanism to ensure that NCGA
requests workers only in sufficient numbers necessary to meet the needs of
Association growers. Without such a mechanism, the NCGA will likely continue
their practice of accounting for normal turnover in their initial request for
workers. This practice has allowed them to replace workers who abandon
without following the strict requirements specified in 8 CFR, Section
214.2(h)(5)(ix).

ETA misinterprets OIG’s finding related to NCGA’s contract ending dates.
Although the complainant alleged that NCGA falsified expected periods of
employment, we did not conclude that. Rather, we concluded that NCGA’s use
of the same ending date for more than 90 percent of their workforce overstated
the length of time they needed a majority of the workers we sampled. This
occurred because certifications were approved for diversified crops with
growing seasons ending in November, while the majority of workers on the
certifications were not needed after the tobacco season ended in October.

OIG recognizes the legitimacy of diversified crop applications, which may
require extended contract dates to accommodate employers’ needs. However,
many of the workers we sampled completed assignments in September and early
October but were only reimbursed for transportation home if they were willing
to transfer to other growers after the tobacco season. Other workers refused
transfer and were not paid return transportation even though there was no
additional work for them to do. We continue to recommend ETA review dates of



U.S. Department of Labor – Office of Inspector General                           18
Evaluation of the North Carolina Growers Association


need contained on applications and insist they more accurately reflect dates
workers are needed for harvests. ETA may have to consider requiring multiple
ending dates for diversified crop certifications.




U.S. Department of Labor – Office of Inspector General                     19
                                                           ATTACHMENT A



                OBJECTIVE, SCOPE AND METHODOLOGY


                                           OBJECTIVE

Our objectives were to evaluate the:

    •   extent and cause of worker abandonments, including the accuracy of the
        Association’s reporting of abandonments;

    •   Association’s practices or procedures that may have contributed to worker
        abandonments; and

    •   financial impact on workers who abandoned their jobs prior to completion
        of their contracts.


                              SCOPE AND METHODOLOGY

To satisfy our evaluation objectives, we reviewed NCGA program activities for
workers whose employment began and ended in calendar year 2001. The review
was conducted at three levels: (1) The Employment and Training
Administration; (2) the State of North Carolina’s Employment Security
Commission; and (3) NCGA’s administrative offices and at the homes and places
of business for selected Association growers.


Employment and Training Administration

We interviewed staff at the National office to obtain their position on a number
of issues, and we interviewed Regional office staff to obtain an understanding of
the approval process and to obtain NCGA Applications for Alien Employment
(ETA 750) for work that was to commence and end during our audit period. We
reviewed and compiled information from these applications for use in
determining our sample universe and performing analytical procedures.




U.S. Department of Labor – Office of Inspector General
                                                          ATTACHMENT A

North Carolina Employment Security Commission

Our work at NCESC was limited to interviews with Employment Security staff
and obtaining copies of abandonment and termination reports submitted by
NCGA. We did not perform any work regarding the application process within
the State, nor did we perform any procedures at any local employment service
offices.

North Carolina Growers Association

We contacted NCGA and obtained a universe of workers who were employed by
the Association and its member growers during the 2001 growing season. We
then implemented a sampling plan. (See Attachment B.)

For the workers selected in our sample, we visited each grower with whom the
sampled worker was assigned. The primary purpose of the visits was to perform
a review of payroll documentation for the sampled worker. We recorded the
hours worked, hours offered, and gross pay for each pay period and in total.

In addition to the payroll information, we also requested information from each
grower related to their request for workers during our evaluation period and
also determined why each worker’s employment ended. We used this
information to calculate the sample abandonment rate and to test whether
workers who failed to complete their contracts were reported to the local
employment security office and to BCIS.

We also used the worker’s payroll information and his reason for leaving to
compare and analyze those workers who completed their contracts with those
who failed to complete and determine any potential causes for worker
abandonments based on the practices and procedures employed by the
Association or any individual grower included in our evaluation.

Our fieldwork began in April 2002 and continued intermittently until July 2003.
The evaluation was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




U.S. Department of Labor – Office of Inspector General
                                                          ATTACHMENT B




          SAMPLING PLAN AND PROJECTED RESULTS



Our universe consisted of all H-2A workers jointly employed by the NCGA and
its member growers on any of 40 Applications for Alien Employment
Certifications approved for work beginning and ending during the calendar year
2001. (See Attachment C for the complete list of certified applications.) The
applications certified by the ETA approved the use of 9,948 workers, and we
found NCGA used them to employ 8,482 workers. Our sample size of 136 was
calculated using a 95 percent confidence limit, with precision of 5 percent, and an
expected error rate of 10 percent. All projections are made using the
mathematical formulas for simple random sampling appraisal methodology.

Our projections fell into two categories: (1) projections for workers’ exit status,
which included workers who completed their contracts and those who
abandoned their jobs; and (2) projections for the timing of workers’ departures,
which divides workers into those who left before or at the end of the tobacco
harvesting season and those who left after. (See narrative and Table 1 below for
detail.)


Projections for Workers’ Exit Status:

Workers completed their contracts either by reaching the end of the contract
period or by finishing work with their assigned growers and having NCGA
determine that they were no longer needed.

Workers abandoned their jobs by: (1) leaving their growers, with or without
notice; or (2) by completing their last assignment but refusing transfer to another
grower prior to the end of the contract period. We projected for this category on
the whole and for each of its two subcategories individually.

Workers who completed their contracts. Based upon a projection of the sample
results, we are 90 percent confident that no more than 55.5 percent of the workers
completed their contracts. The unbiased point estimate is 48.5 percent. We are
90 percent confident that no less than 3,517 workers and no more than 4,711
workers out of a total universe of 8,482 workers completed their contracts.

Workers who abandoned their jobs. This category includes both workers who
abandoned their growers and those who completed their last assignment but


U.S. Department of Labor – Office of Inspector General
                                                          ATTACHMENT B


refused transfer to another grower. Based upon a projection of the sample
results, we are 90 percent confident that no more than 58.5 percent of the workers
abandoned their jobs. The unbiased point estimate is 51.5 percent. We are 90
percent confident that no less than 3,771 workers and no more than 4,965
workers out of a total universe of 8,482 abandoned their jobs.

        Workers who abandoned their growers. Based upon a projection of the
        sample results, we are 90 percent confident that no more than 43.6 percent
        of the workers abandoned their growers. The unbiased point estimate is
        36.8 percent. We are 90 percent confident that no less than 2,545 workers
        and no more than 3,698 workers out of a total universe of 8,482 workers
        abandoned their assigned growers.

        Workers who completed their last assignment but refused transfer to
        another grower. Based upon a projection of the sample results, we are 90
        percent confident that no more than 19.7 percent of the workers refused
        transfer to another grower. The unbiased point estimate is 14.7 percent.
        We are 90 percent confident that no less than 824 workers and no more
        than 1,670 workers out of a total universe of 8,482 workers refused to be
        transferred.


Projections for the Timing of Workers’ Departures:

We divided workers into two groups: (1) those workers who worked
their last day by October 15, 2001 (the approximate end of the tobacco
harvesting season); and (2) those workers who worked their last day after
October 15.

Workers who worked their last day by October 15, 2001. Based upon a
projection of the sample results, we are 90 percent confident that no more
than 72.10 percent of the workers left by October 15, 2001. The unbiased
point estimate is 65.40 percent. We are 90 percent confident that no less
than 4,979 workers and no more than 6,116 workers out of a total universe
of 8,482 workers worked their last day by October 15, 2001.

Workers who worked their last day after October 15, 2001. Based upon a
projection of the sample results, we are 90 percent confident that no more
than 41.30 percent of the workers worked their last day after
October 15, 2001. The unbiased point estimate is 34.60 percent. We are 90
percent confident that no less than 2,366 workers and no more than 3,503
workers out of a total universe of 8,482 workers left after October 15, 2001.



U.S. Department of Labor – Office of Inspector General
                                                         ATTACHMENT B


                                                                          Table 1

                    Sample of H-2A Workers – Calendar Year 2001
                                Table of Projections

                               Attribute
                                 Point       Sampling       Lower           Upper
Category                       Estimate         Error        Limit           Limit
Contract Completers             48.5 %         4.27 %       41.46 %         55.54 %
                                (4,114)                     (3,517)         (4,711)
Abandoned Job                   51.5 %         4.27 %       44.46 %         58.54%
                                (4,368)                     (3,771)         (4,965)
  Quit Assigned Grower          36.8 %         4.12 %       30.01 %         43.59 %
                                (3,121)                     (2,545)         (3,698)
  Refused Transfer              14.7 %         3.02 %       9.71 %          19.69 %
                                (1,247)                      (824)          (1,670)
Last Day by October 15          65.4 %         4.06 %       58.7 %          72.1 %
                                (5,547)                     (4,979)         (6,116)
Last Day after October 15       34.6 %         4.06 %       27.9 %          41.3 %
                                (2,935)                     (2,366)         (3,503)
Note: Universe size for all categories equals 8,482 and sample size equals 136.
      Projections were calculated using a 90 percent confidence limit.




U.S. Department of Labor – Office of Inspector General
                                                                         ATTACHMENT C


         List of Approved Applications for Alien Employment Certification

             ETA                         Beg.                 End
No.        Case No.      Wkrs.       Date of Need         Date of Need    Crop
1.        20400814           18       01-FEB-01            15-NOV-01      Nursery
2.        20400815            4       01-FEB-01            01-NOV-01      Fruit
3.        20400827            2       26-JAN-01            26-OCT-01      Livestock
4.        20400832           25       01-FEB-01            05-NOV-01      Nursery
5.        20400833           57       01-FEB-01            05-NOV-01      Diversified Crops
6.        20400834           24       10-FEB-01            10-DEC-01      Christmas Trees
7.        20400854           12       15-FEB-01            05-NOV-01      Nursery
8.        20400892          164       01-MAR-01            05-NOV-01      Diversified Crops
9.        20400893          139       02-MAR-01            10-DEC-01      Christmas Trees
10.       20400921            8       11-MAR-01            30-NOV-01      Turf Farm
11.       20400940            4       15-MAR-01            05-NOV-01      Nursery
12.       20400941           25       15-MAR-01            10-DEC-01      Christmas Trees
13.       20400942          176       15-MAR-01            05-NOV-01      Diversified Crops
14.       20400949           11       16-MAR-01            05-NOV-01      Diversified Crops
15.       20400965           37       23-MAR-01            05-NOV-01      Diversified Crops
16.       20401006        2,019       02-APR-01            05-NOV-01      Diversified Crops
17.       20401007           58       02-APR-01            10-DEC-01      Christmas Trees
18.       20401008           67       02-APR-01            05-NOV-01      Diversified Crops
19.       20401061           86       16-APR-01            05-NOV-01      Diversified Crops
20.       20401062          890       16-APR-01            05-NOV-01      Diversified Crops
21.       20401082            4       18-APR-01            10-DEC-01      Christmas Trees
22.       20401143            4       08-MAY-01            05-NOV-01      Turf Farm
23.       20401144          154       07-MAY-01            05-NOV-01      Diversified Crops
24.       20401145          480       03-MAY-01            05-NOV-01      Diversified Crops
25.       20401173          435       07-MAY-01            05-NOV-01      Diversified Crops
26.       20401215          734       21-MAY-01            05-NOV-01      Diversified Crops
27.       20401259          721       04-JUN-01            05-NOV-01      Diversified Crops
28.       20401277           65       10-JUN-01            05-NOV-01      Diversified Crops
29.       20401316           55       18-JUN-01            10-DEC-01      Christmas Trees
30.       20401317        1,304       18-JUN-01            05-NOV-01      Diversified Crops
31.       20401360        1,209       02-JUL-01            05-NOV-01      Diversified Crops
32.       20401387          239       16-JUL-01            05-NOV-01      Diversified Crops
33.       20401416          176       30-JUL-01            05-NOV-01      Diversified Crops
34.       20401423           19       04-AUG-01            05-NOV-01      Diversified Crops
35.       20401434          157       16-AUG-01            05-NOV-01      Diversified Crops
36.       20401441            9       17-JUL-01            05-NOV-01      Diversified Crops
37.       20401459            3       03-AUG-01            05-NOV-01      Diversified Crops
38.       20401498            9       12-SEP-01            05-NOV-01      Diversified Crops
39.       20401502          341       25-OCT-01            10-DEC-01      Christmas Trees
40.       20401511            4       19-SEP-01            10-DEC-01      Christmas Trees

Number of Workers =       9,948




 U.S. Department of Labor – Office of Inspector General
                                                                  APPENDIX 1




                       THE COMPLETE TEXT OF ETA’S
                     RESPONSE TO THE DRAFT REPORT




      The entire text of ETA’s comments to the draft report follows this page.




U.S. Department of Labor – Office of Inspector General
                                                         APPENDIX 1




U.S. Department of Labor – Office of Inspector General
                                                         APPENDIX 1




U.S. Department of Labor – Office of Inspector General
                                                         APPENDIX 1




U.S. Department of Labor – Office of Inspector General
